Department of Homeland Security
   Ofﬁce of Inspector General

            The State of New York’s Management of 

             State Homeland Security Program and 

             Urban Areas Security Initiative Grants 

                  Awarded During Fiscal Years 

                       2006 through 2008





OIG-11-30                                         January 2011
                                                                  Offce of Inspector General

                                                                  U.S. Department of   Homeland Security
                                                                  Washigton, DC 20528



                                                                  Homeland
                                                                  Security
                                              JAN i 3 2lJf


                                                Preface

The Department of   Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as par of our oversight responsibilities to promote economy,
effciency, and effectiveness within the department.


The attached report presents the results of                         the audit ofthe State of New York's
management of State Homeland Security Program and Urban Areas Security Initiative
grants awarded during Fiscal Years 2006 through 2008. We contracted with the
independent public accounting firm Foxx & Company to perform the audit. The contract
required that Foxx & Company perform its audit according to generally                            accepted
government auditing standards. Foxx & Company's report identifies six reportable
conditions where State management of the grant funds could be improved, resulting in
14 recommendations addressed to the Assistant Administrator, Grant Programs
Directorate, Federal Emergency Management Agency. Foxx & Company also identified
a best practice that should be considered for use by other jurisdictions. Foxx & Company
is responsible for the attached auditor's report dated January 5, 2011, and the conclusions
expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
offce, and have been discussed in draft with those responsible for implementation. We
trust this report wil result in more effective, effcient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                                  ~o(U4
                                               Anne L. Richards
                                               Assistant Inspector General for Audits
January 5, 2011

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W. Building 410
Washington, D.C. 20528

Dear Ms. Richards:

Foxx & Company performed an audit of the State of New York’s management of the
Department of Homeland Security’s State Homeland Security Program and Urban Areas
Security Initiative grants for Fiscal Years 2006 through 2008. The audit was performed
in accordance with our Task Order No. TPD-FIG-BPA-07-0007, Call 0003 dated
September 29, 2009. This report presents the results of the audit and includes
recommendations to help improve the State’s management of the audited State Homeland
Security Program and Urban Areas Security Initiative grants.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of New York’s financial statements or the funds claimed in the Financial Status
Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely, 

Foxx & Company 




Martin W. O’Neill 

Partner 

Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1 


Background ....................................................................................................................... 2 


Results of Audit ................................................................................................................ 6 


           Measurable Goals and Objectives ......................................................................... 6 

           Recommendations ................................................................................................. 8 

           Management Comments and Auditors’ Analysis ................................................. 9 


           Sustainability Plans for Long Term Support ...................................................... 10 

           Recommendation ................................................................................................ 12 

           Management Comments and Auditors’ Analysis ............................................... 12 


           Noncompliance with Procurement Regulations .................................................. 13 

           Recommendations ............................................................................................... 17 

           Management Comments and Auditors’ Analysis ............................................... 17 


           Noncompliance with Grant Inventory Requirements ......................................... 18 

           Recommendations ............................................................................................... 21 

           Management Comments and Auditors’ Analysis ............................................... 21 


           Untimely Expenditure of Grant Funds ................................................................ 22 

           Recommendation ................................................................................................ 25 

           Management Comments and Auditors’ Analysis ............................................... 26 


           Salary Claims Not Based on Actual Expenditures ............................................. 26 

           Recommendations ............................................................................................... 28 

           Management Comments and Auditors’ Analysis ............................................... 29 



     Appendices
           Appendix A:           Purpose, Scope, and Methodology ..............................................                  30 

           Appendix B:           Management Comments to the Draft Report ..............................                          33 

           Appendix C.           Organization Chart ......................................................................       45 

           Appendix D:           Report Distribution .....................................................................       46 


     Abbreviations
           DHS                   Department of Homeland Security

           FEMA                  Federal Emergency Management Agency 

           FY                    Fiscal Year

           OIG                   Office of Inspector General 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Foxx & Company completed an audit of the State of New York’s
                      Management of State Homeland Security Program and Urban
                      Areas Security Initiative grants awarded during Fiscal Years 2006
                      through 2008. The audit objectives were to determine whether the
                      State distributed and spent Homeland Security Program funds
                      strategically, effectively, and in compliance with laws, regulations,
                      and guidance. The audit included a review of approximately
                      $565 million in State Homeland Security Program and Urban
                      Areas Security Initiative grants awarded to the State of New York.

                      Generally, the State did an efficient and effective job of
                      administering program requirements in accordance with grant
                      guidance and regulations. The State’s plans linked funding to all-
                      hazard capabilities and to goals that were established based on risk
                      assessments. Also, the State effectively monitored the grant
                      programs.

                      However, some improvements are needed in the State’s
                      establishment of measurable goals and objectives, identification of
                      long-term capability sustainment options, compliance with
                      procurement and inventory requirements, and timeliness of
                      expenditures. Additionally, the State needs to ensure that salary
                      claims made by subgrantees are based on actual expenditures.

                      Our 14 recommendations call for the Federal Emergency
                      Management Agency to require the State of New York to initiate
                      improvements which, if implemented, should help strengthen
                      program management, performance, and oversight. Federal
                      Emergency Management Agency officials did not concur with
                      recommendations 2, 3, and 4. In addition, State officials did not agree
                      with recommendations 1, 2, 4, 5, 6, 13, and 14. The State officials’
                      written response to the recommendations is included as Appendix B.




          The State of New York’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 1

Background
                    The Homeland Security Grant Program is a federal assistance grant
                    program administered by the U.S. Department of Homeland
                    Security (DHS) Grant Programs Directorate within the Federal
                    Emergency Management Agency (FEMA). The current Grant
                    Programs Directorate, hereafter referred to as FEMA, began with
                    the Office of Domestic Preparedness, which was transferred from
                    the Department of Justice to DHS in March 2003. The Office of
                    Domestic Preparedness was subsequently consolidated into the
                    Office of State and Local Government Coordination and
                    Preparedness which, in part, became the Office of Grants and
                    Training, and which subsequently became part of FEMA.

                    Although the grant program was transferred to DHS, applicable
                    Department of Justice grant regulations and legacy systems still
                    were used as needed to administer the program. For example,
                    through Fiscal Year (FY) 2008 the Office of Justice Programs’
                    Grants Management System was used to receive grantee
                    applications and to administer the award and reporting processes.
                    Also, prior to the transfer, the State Administrative Agency entered
                    payment data into the Office of Justice Programs’ Phone Activated
                    Paperless Request System, which was a drawdown payment
                    system for grant funds. That payment system was replaced in
                    April 2007 by FEMA’s Payment and Reporting System. This
                    system allows grantees to make payment requests and complete
                    and transmit quarterly Financial Status Reports online.

                    Homeland Security Grant Program

                    The Homeland Security Grant Program provides federal funding to
                    help state and local agencies enhance their capabilities to prevent,
                    deter, respond to, and recover from terrorist attacks, major
                    disasters, and other emergencies. The Homeland Security Grant
                    Program encompasses several interrelated federal grant programs
                    that together fund a range of preparedness activities, including
                    planning, organization, equipment purchase, training, and
                    exercises, as well as management and administration costs.
                    Depending on the FY, the program included some or all of the
                    following programs:

                    •	 State Homeland Security Program supports the
                       implementation of State Homeland Security Strategies to
                       address the identified planning, organization, equipment,
                       training, and exercise needs to prevent, protect against, respond

        The State of New York’s Management of State Homeland Security Program and 

     Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                            Page 2

                   to, and recover from acts of terrorism and other catastrophic
                   events.

               •	 Urban Areas Security Initiative Program funds address the
                  unique planning, organization, equipment, training, and
                  exercise needs of high-threat, high-density Urban Areas, and
                  assists the areas in building an enhanced and sustainable
                  capacity to prevent, protect against, respond to, and recover
                  from acts of terrorism.

               •	 Law Enforcement Terrorism Prevention Program provides
                  resources to law enforcement and public safety communities
                  (working with their private partners) to support critical
                  terrorism prevention activities, including: establishing /
                  enhancing fusion centers and collaborating with non-law
                  enforcement partners, other government agencies, and the
                  private sector.

               •	 Citizen Corps Program mission is to bring community and
                  government leaders together to coordinate the involvement of
                  community members in emergency preparedness, planning,
                  mitigation, response, and recovery.

               •	 Metropolitan Medical Response System Program funds
                  support designated jurisdictions to further enhance and sustain
                  a regionally integrated, systematic mass casualty incident
                  preparedness program that enables a response during the first
                  crucial hours of an incident. The program prepares
                  jurisdictions for response to all-hazards mass casualty
                  incidents, including chemical, biological, radiological, nuclear,
                  and explosives terrorism, epidemic disease outbreaks, natural
                  disasters, and large-scale hazardous material incidents.

               State Administrative Agency

               The governors of each state appoint a State Administrative Agency
               to administer the Homeland Security Grant Program. The State
               Administrative Agency is responsible for managing the grant
               programs in accordance with established federal guidelines. The
               State Administrative Agency is also responsible for allocating
               funds to local, regional, and other state government agencies.
               In 2001, the Governor of New York created the Office of Public
               Security by Executive Order. This office was later codified in
               State legislation as the Office of Homeland Security. The Office
               of Homeland Security is the State Administrative Agency for the

   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 3

               Homeland Security Grant Program. The New York Office of
               Homeland Security administered all of the Homeland Security
               Grant Program grants included in our audit scope. The New York
               State Office of Homeland Security’s organizational structure is
               depicted in Appendix C. In July 2010, the Office of Homeland
               Security was merged with the State Emergency Management
               Office and four other State organizations to become the Division of
               Homeland Security and Emergency Services.

               The State of New York has five Urban Areas Security Initiative
               areas: New York City, Buffalo, Albany, Syracuse, and Rochester.
               The State’s Office of Homeland Security, Homeland Security
               Strategy Work Group, is comprised of representatives of 15 State
               agencies. The Work Group guides the planning process for State
               Homeland Security Program grant funds. The Group meets
               monthly to assess progress on local and state initiatives. It is
               responsible for developing the State’s Investment Justifications
               and the State Preparedness Reports. Each Urban Areas Security
               Initiative has its own group for planning, strategy development,
               identifying needs, and preparing Investment Justifications.

               Grant Funding

               FEMA awarded the State of New York approximately
               $625 million in Homeland Security Grant Program funds during
               FYs 2006 through 2008. As part of this program, the State
               received $565 million in State Homeland Security Program and
               Urban Areas Security Initiative grants. During that timeframe, the
               State Administrative Agency awarded funds to the following
               subgrantees which included counties, cities, State agencies, urban
               areas, and a Native American tribe:

                 •	 2006: 73 subgrantees comprised of 56 counties, 9 cities, 

                    6 State agencies, and 2 urban areas; 

                 •	 2007: 75 subgrantees comprised of 57 counties, 9 cities,
                    6 State agencies, 1 Native American tribe, and 2 urban areas;
                    and
                 •	 2008: 63 subgrantees comprised of 52 counties, 4 cities, 

                    1 State agency, 1 village, and 5 urban areas; 


               Table 1 displays a breakdown of the State Homeland Security
               Program and Urban Areas Security Initiative grant funds by year.
               Some urban areas did not receive grant funds during each of the
               fiscal years.


   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 4

                                                 Table 1
                                              New York
                                Homeland Security Grant Program Awards
                                    Fiscal Years 2006 through 2008

              Funded Activity       FY 2006         FY 2007         FY 2008              Total

             State Homeland
                                   $27,460,000    $38,810,000      $76,500,000 $142,770,000
             Security Program
             Urban Areas
                                 $128,160,000 $139,560,000        $154,319,000 $422,039,000
             Security Initiative
             Law Enforcement
             Terrorism                                               Not
                                   $26,010,000    $27,710,000                      $53,720,000
             Prevention                                            Applicable
             Program
             Citizen Corps
                                      $882,000        $668,000        $665,000      $2,215,000
             Program
             Metropolitan
             Medical Response       $1,162,000      $1,291,000      $1,606,000      $4,059,000
             System Program
                    Total         $183,674,000 $208,039,000       $233,090,000 $624,803,000


               Scope of Audit

               Foxx & Company completed an audit of the State of New York’s
               management of DHS’ State Homeland Security Program and
               Urban Areas Security Initiative grants awarded during FYs 2006
               through FY 2008. The objectives of the audit were to determine
               whether the State distributed and spent Homeland Security Grant
               Program funds strategically, effectively, and in compliance with
               laws, regulations, and guidance. Nine researchable questions
               provided by the DHS Office of Inspector General (OIG)
               established the framework for the audit. The researchable
               questions were related to the State Administrative Agency’s
               planning, management, and evaluations of grant activities.
               Appendix A provides additional details on the Purpose, Scope, and
               Methodology of this audit, including the nine researchable
               questions.




   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 5

Results of Audit

     State Grants Management Practices Were Generally Effective,
     But Required Some Improvements
            Generally, the State did an efficient and effective job of administering
            program requirements in accordance with grant guidance and regulations.
            The State’s plans linked funding to all-hazard capabilities and to goals that
            were established based on risk assessments. Also, the State effectively
            monitored the grant programs.

            However, improvements were needed to enhance New York’s
            management of the grants including:

              •	 Develop measureable capability goals and objectives,
              •	 Identify long-term capability sustainment options,
              •	 Ensure compliance with procurement regulations and inventory
                 requirements,
              •	 Improve the timeliness of grant fund expenditures, and
              •	 Ensure that salary claims of subgrantees are based on actual
                 expenditures.

            We have provided 14 recommendations that will enhance the effectiveness
            of the State’s grants management and overall use of the grant funds to
            improve preparedness and response capabilities. In addition, the audit
            resulted in $4.3 million in grant expenditures being questioned.


     Measurable Goals and Objectives
            For FYs 2006 through 2008 the State Office of Homeland Security could
            not demonstrate specific improvement and accomplishments based on its
            strategic goals and objectives because the State did not provide an
            adequate basis for measuring improvements in the State’s preparedness
            and response capabilities. For FYs 2006 through FY 2008 the Agency had
            not developed measurable goals and objectives consistent with federal
            requirements. The State revised its goals and objectives for FY 2009 and
            State Office of Homeland Security officials believed that these revisions
            were improvements over the prior goals and objective. The revised goals
            and objectives, however, were also stated in a manner which made
            measuring progress difficult. To measure performance in achieving goals
            and objectives the Agency relied on information that estimated progress
            toward achieving goals and objectives. As a result, the State did not


         The State of New York’s Management of State Homeland Security Program and 

      Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                             Page 6

      provide specific documentation to demonstrate the effect that grant funds
      had on the capability of first responders.

      Code of Federal Regulations Title 44 § 13.40, Monitoring and reporting
      program performance, requires that grantees monitor grant and subgrant
      supported activities to assure that performance goals are being achieved. In
      addition, Department of Homeland Security State and Urban Areas
      Homeland Security Strategy Guidance on Aligning Strategies with the
      National Preparedness Goal, dated July 22, 2005, states that an objective
      sets a tangible and measurable target level of performance over time
      against which actual achievement can be compared, including a goal
      expressed as a quantitative standard, value or rate. Therefore, an objective
      should be:

        •	 Specific, detailed, particular, and focused — helping to identify what
           is to be achieved and accomplished;
        •	 Measurable — quantifiable, providing a standard for comparison,
           and identifying a specific achievable result;
        •	 Achievable — the objective is not beyond a state, region, 

           jurisdiction, or locality’s ability; 

        •	 Results-oriented — identifies a specific outcome; and
        •	 Time-limited —a target date exists to identify when the objective 

           will be achieved. 


      New York State Office of Homeland Security officials acknowledged that
      they did not have a basis for measuring improvements in the State’s
      preparedness and response capabilities. The officials pointed out they
      have participated in DHS efforts to develop a Cost-to-Capability system.
      According to State Office of Homeland Security officials, the 2009 State
      strategy had been revised to emphasize the development of metrics for
      measuring progress. The 2009 strategy, however, contains goals and
      objectives that are not specific, and therefore, difficult to measure. For
      example, one goal is to Strengthen Communications and Emergency Alert
      Capabilities. An objective under this goal is to support State and regional
      planning efforts to find interoperable communications solutions. State
      Office of Homeland Security officials also stated that they obtained
      information on the estimated progress towards achieving goals and
      objectives from an annual assessment and information from surveys of
      subgrantees and first responders. In addition, State Office of Homeland
      Security officials pointed out that in some areas progress can be
      quantitatively measured. For example, State Office of Homeland Security
      effectively measures the capability advancement of Bomb Squads and
      Hazardous Materials Teams.



   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 7

      According to the State officials, the development of measurable goals was
      difficult. The State had not developed measurable goals because FEMA
      had not required the State to do so and FEMA had approved the State
      strategy for FYs 2006 through 2008. Also, the officials pointed out that
      DHS had not developed metrics for measuring progress. State officials
      stated that the progress on projects was addressed in annual FEMA
      monitoring reports which provided estimated percentages for completing
      projects. In addition, the State’s participation with DHS on the Cost-to-
      Capability pilot project did not leave a positive impression with State
      Office of Homeland Security officials regarding DHS’ assistance in
      developing metrics. In a September 2009 letter to DHS, State Office of
      Homeland Security officials provided the following observations:

        •	 The Cost-to-Capability prototype fails to account for the essential
           role that risk plays in the allocation of homeland security resources.
           It does not capture State and local threat levels, which are critical to
           the effective distribution of grant funds.
        •	 The system does not accurately measure capabilities or 

           programmatic effectiveness.

        •	 It does not provide for any linkage to State or Urban Areas 

           Homeland Security Strategies; strategies that FEMA requires and 

           that have guided the grant funding process since 2003. 

        •	 It is highly subjective and not user friendly or intuitive.

      While we did not verify the above observations, we recognize that without
      measurable goals and objectives and a mechanism to collect objective,
      results-oriented data from local jurisdictions and first responders, the State
      did not have a basis to evaluate the effect of grant expenditures on its
      preparedness and response capabilities. Also, the State could not consider
      progress toward goals and objectives for future funding and management
      decisions. State Office of Homeland Security officials stated that they use
      a risk based approach for making funding decisions rather than progress in
      achieving goals and objectives. Without information on achieving specific
      and measurable goals and objectives, however, FEMA would not know
      what measurable progress was being made to improve preparedness and
      response capability or the amount of additional funding and time that
      would be needed to ultimately achieve goals and objectives.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the New York State Office of
               Homeland Security to:



   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 8

               Recommendation #1: Develop strategic goals and objectives
               applicable to first responder capabilities that are specific,
               measurable, achievable, results-oriented, and time limited.

               Recommendation #2: Incorporate the goals and objectives into a
               statewide system for measuring local jurisdiction first responder
               progress toward achieving the goals and objectives.

               Recommendation #3: Include the progress achieved in the goals
               and objectives along with risk in the decision making process for
               future first responder grant funding decisions.

      Management Comments and Auditors’ Analysis
               FEMA did not concur with recommendation #2 and #3. FEMA
               stated that the Homeland Security Strategy was meant to be a
               strategic document providing a framework to identify needed
               capabilities and was not designed to measure progress and identify
               gaps. We do not agree with FEMA’s position. Once strategic
               goals and objectives are developed that are specific, measurable,
               achievable, results-oriented, and time limited as stated in
               recommendation #1, the goals and objectives should be used to
               measure progress and the progress achieved should be considered
               in future grant funding. While the Homeland Security Strategy
               was not designed to measure progress and identify gaps, there is a
               need for goals and objectives that comply with federal
               requirements and provide a basis for measuring progress in
               achieving needed capabilities.

               The State Administrative Agency disagreed with the assessment
               leading to recommendation #1. The Agency officials said that it
               has complied with all federal requirements and implemented a
               strategy approved by DHS. The officials also said that measuring
               preparedness is difficult and complicated by FEMA’s inability to
               develop a system for assessing the impact of grant funding.

               The State Administrative Agency also disagreed with
               recommendation #2. The Agency officials said that it should not
               be required to do what the federal government has been unable to
               do. While it does not employ mathematical progress measures, it
               uses other processes to understand progress made through the use
               of federal grants. We recognize that while measuring progress is
               difficult, it should not be a reason for not trying to quantitatively
               measure progress.


   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 9

                For recommendation #3, the officials said that it considered both
                progress and risk in making grant funding decisions. Although we
                recognize that the State uses risk as a measure in grant funding
                decisions, we believe that using progress achieved should also be
                an important factor in funding decisions.

                The Assistant Administrator, Grant Programs Directorate, needs to
                provide corrective actions for the recommendations and a plan to
                implement them within 90 days.

Sustainability Plans for Long Term Support
       Sustaining long-term activities funded by the Homeland Security Grant
       Program may not be possible without continued federal funding. Actions
       by the State and subgrantees indicated that the Homeland Security Grant
       Program was being viewed as continuing indefinitely, even though the
       Homeland Security Grant Program is not an entitlement program. Multi-
       year projects were approved that extended beyond the grant period without
       identified state and local funds for completing the projects. Investment
       Justifications for projects within the programs indicated that additional
       federal funding would be needed to sustain the capabilities achieved with
       the projects. As a result, the sustainment of capabilities in the long run
       and the completion of projects funded by multi-year contracts may be in
       jeopardy should the funding for the Homeland Security Grant Program be
       discontinued or severely reduced.

       The Homeland Security Grant Program receives funds through annual
       appropriations. The amount appropriated varies from year-to-year and is
       not guaranteed for any future year. Each grant program has specific
       appropriations and periods of performance within which the funds must be
       used. Grantees may only fund investments that were included in a specific
       year’s Investment Justifications that were submitted to DHS and evaluated
       through the agency’s peer review process. State Office of Homeland
       Security and New York City officials stated that while these funds are
       limited, the State and the City also have expended significant amounts of
       their own funds for Homeland Security projects.

       The DHS funding provided to grantees through the Homeland Security
       Grant Program over the past several years has created a perception that
       this funding will continue indefinitely as would be the case for entitlement
       programs, such as Medicare and Social Security. Unlike entitlement
       programs, the annual appropriations for the Homeland Security Grant
       Program are based on budget justifications provided to the Congress by
       DHS. State Office of Homeland Security officials stated, however, that


    The State of New York’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 10

      information on proposed federal budgets and commitments to continue the
      war on terrorism indicates that funding will continue in the future.

      The State’s Investment Justifications for FY 2006-2008 included
      45 programs. Our review showed that of the 45 individual program
      justifications, 25 (56%) indicated that federal funds were needed to sustain
      the program, or that the capability would not be sustained without federal
      funding. For the other 20 programs that did not mention that federal funds
      were needed, the justifications either did not mention funding sources or
      indicated that other sources, such as state or local funding, would be
      needed to sustain the capability. State Office of Homeland Security
      officials stated that the number of letter characters allowed for addressing
      sustainability in investment justifications was limited on the FEMA
      document. Therefore the amount of information provided was limited by
      this restriction. For FY 2010, FEMA did not require investment
      justifications to address sustainability. State Office of Homeland Security
      officials stated that other than the investment justification requirement,
      they were unaware of any other mandates requiring developing or
      reporting information on sustainment.

      We noted several multi-year commitments that relied on future federal
      funding. For example, the Fire Department New York approved a multi-
      year contract based on the likelihood that federal funding would be
      available for the life of the contract. The Fire Department New York
      entered into a $5.5 million contract on October 18, 2006, for development
      of a Patient Tracking System. The system would be utilized by the Fire
      Department New York for electronically tracking the movement of
      patients from initial contact by Fire Department New York through
      transfer of care to a medical receiving facility. The system would provide
      needed information in mass casualty incidents. The term of the contract
      was from February 22, 2007, through February 21, 2011. This contract
      period exceeded the original term of the grant performance period of
      July 1, 2006, through June 30, 2008. The deliverables for the contract
      were expected to extend beyond the grant period and the project would not
      be completed until near the end of the contract period (February 2011). At
      the time of our visit a substantial amount of work had yet to be completed
      for the Patient Tracking System project. Cumulative State Homeland
      Security Program expenditures as of February 25, 2010, were $378,874 of
      the $5.5 million dollar contract ceiling.

      The Fire Department New York and the New York City Office of
      Management and Budget officials operated under the assumption that
      grant funds from future years would be available for project expenditures.
      A Fire Department New York official stated that, if federal funding was
      not available, the City would have to bear the cost of the contract. The

   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 11

      project would be reviewed and would not go forward if the project was
      still in the initial phase. The award of long-term contracts anticipates that
      federal funds will continue to be available to complete the projects.

      The threat of terrorism and other hazards, and the annual award of funds
      from the Homeland Security Grant Program, have caused grantees and
      subgrantees to assume that federal funds will continue to be available.
      Nevertheless, DHS had required the States to address sustainability plans
      for long term support of acquired capabilities. However, the wording in
      the State’s grant applications only addressed sustainability in general
      terms and did not actually identify other sources of funding should federal
      funding be reduced or eliminated all together.

      The sustainment of capabilities in the long run and the completion of
      projects funded by multi-year contracts may be in jeopardy if future
      federal funding is not available or significantly reduced. If this occurs,
      grantees and subgrantees would have to provide support to retain acquired
      preparedness and response capabilities. If the required funds exceeded the
      financial ability of the grantee and subgrantees, the acquired capabilities
      could be reduced or eliminated.

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the New York Office of
               Homeland Security to:

               Recommendation #4: Identify on-going and proposed projects
               for FYs 2006 through 2008 that will need federal funding beyond
               the grant period, estimate the timeframe and the amount of money
               needed to complete the projects, and provide contingency plans
               with options for sustaining the capabilities being acquired in the
               absence of federal funds.

      Management Comments and Auditors’ Analysis
               FEMA did not concur with recommendation #4. FEMA officials
               said that addressing long-term sustainment of grant-funded
               activities is outside the scope of the audit, and that the State was
               not in violation of regulations or grant requirements. Imposing this
               requirement on the State is unreasonable and inequitable since it is
               not a requirement of all grant recipients. FEMA officials said that
               the issue of long-term sustainment of the projects/initiatives is a
               cross-cutting issue that should be discussed at the highest levels of


   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 12

                DHS, as requiring a state or urban area to complete such a task has
                broad policy implications.

                We do not agree with FEMA’s position. The purpose of the audit
                was to determine whether grant funds were spent strategically,
                effectively, and in compliance with laws, regulations, and
                guidance. To determine whether grant funds are being spent
                effectively, it is important to know if funded projects will be
                completed or sustained should future Federal funding be reduced
                or eliminated. Obtaining project completion and sustainment
                requirements is important information for approving future funding
                and should not be delayed because of the perceived need of a high
                level policy discussion. The State should have information
                available from Investment Justifications or other sources to
                determine the time period for completing and sustaining grant
                funded projects. Accordingly, gathering this information should
                not be an undue burden.

                The State Administrative Agency disagreed with Recommendation
                #4. The State officials said that additional grant funding is
                available to support on-going and proposed projects. The officials
                further stated that the audit did not take into account funds
                approved for grant cycles FYs 2009 and 2010 that provided
                available funding until 2013. The State officials also said that the
                information contained in DHS Bulletin No. 336 regarding use of
                funds to sustain investments was omitted from the report. This
                bulletin allows grant funding to maintain and sustain current
                investments.

                The recommendation, however, is focused on completing projects
                and not maintaining previous investments. We believe that the
                funding information that would be obtained through
                implementation of the recommendation would be useful for
                planning the completion of projects in the absence of federal funds.

                The Assistant Administrator, Grant Programs Directorate, needs to
                provide corrective actions for the recommendation and a plan to
                implement it within 90 days.

Noncompliance with Procurement Regulations
       The New York City Police Department awarded contracts without the use
       of full and open competition, and did not comply with federal
       requirements in procuring equipment. The New York City Police
       Department used a confidential and special expense purchase process that

    The State of New York’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 13

      involved negotiating directly with vendors for purchasing equipment and
      other items. Using this process, the New York City Police Department
      purchased 145 items costing more than $10,000 each without being
      advertised and without the receipt of required sealed bids in accordance
      with New York state law and the subagreement provisions. The
      noncompetitive process was used because the New York City Police
      Department did not want to disclose information that could be used to
      compromise the equipment by terrorists or others. The process, however,
      denied the Department the full value of a competitive market place. The
      Department may have paid more for the equipment than if an open bidding
      process had been used. As a result of the noncompliance with
      requirements, we have questioned $4.1 million of equipment purchased
      through the confidential and special expense process.

      Grantees and subgrantees that receive State Homeland Security Program
      and Urban Areas Security Initiative grant funds are required to comply
      with all applicable laws, regulations, and program guidance. These
      regulations include FEMA’s codified regulation, Code of Federal
      Regulations Title 44 Part 13, Uniform Administrative Requirements for
      Grants and Cooperative Agreements to State and Local Governments.
      Procurement is addressed in Code of Federal Regulations Title 44 §13.36
      (a), which states that a State will follow the same policies and procedures
      it uses for procurements from its non-Federal funds. The State will ensure
      that every purchase order or other contract includes any clauses required
      by Federal statutes and executive orders and implementing regulations.

      The grant contracts that the State Office of Homeland Security utilized for
      awarding State Homeland Security Program and Urban Areas Security
      Initiative funds to subgrantees requires the subgrantee to make
      procurements in accordance with New York State General Municipal Law
      Article 5-A and other applicable regulations. Section 103 of Municipal
      Law Article 5-A states all purchase contracts involving an expenditure of
      more than $10,000 shall be awarded to the lowest responsible bidder after
      advertisement for sealed bids. New York City Police Department
      Officials stated that they follow procurement standards set forth by the
      New York City Procurement Board rules. These standards define small
      purchase procurements as those of not more than $100,000. Procurements
      over $100,000 are subject to public solicitation and award and for those
      valued over $5,000 at least five vendors shall be solicited from a small
      bidders purchase list. Because the New York City subagreements required
      using the $10,000 threshold for bidding and we were not provided with
      documentation that released the City from this requirement, we believe
      that the New York City Police Department was required to use advertised
      procurement for purchases over $10,000.


   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 14

      The New York City Police Department officials told us that they were
      concerned about publicly disclosing sensitive information on equipment
      procured that could be used by terrorists or others for criminal activities.
      Accordingly, the New York City Police Department adopted a confidential
      and special expense procurement process in order to not make public
      information that would be disclosed in an open bidding process. State
      officials said that the confidential and special expense purchase process
      was unique to the New York City Police Department and not used by
      other New York State subgrantees.

      The Federal Acquisition Regulation does contain provisions that allow for
      non-competitive contracts for circumstances such as a unique source or
      national security. The circumstances for these type awards must be
      documented with justification for other than full and open competition.
      We question the use of the confidential and special expense purchase
      process by the New York City Police Department to purchase some items,
      as confidentially was not an apparent issue.

      According to the March 2007 New York Police Department protocol the
      New York City Police Department conducts limited procurement
      outreach and negotiates directly with vendors for purchasing equipment
      when using the confidential and special expenses purchase process. The
      vendors agreed to comply with New York City Police Department
      confidentially requirements and other conditions for items costing more
      than $100,000 that were purchased without being advertised and without
      the receipt of required sealed bids. New York City officials stated that
      while the purchased items were not publicly advertised, the Police
      Department did solicit bids from multiple vendors except in cases where
      only a single source was available. The Police Department selected the
      vendors from this solicitation of bids and believed this process was equal
      to the competitive process of publicly soliciting bids. Because we were
      not provided with the procurement information or contract specifications
      by City officials during our field work, we could not verify that this
      protocol was being followed as described.

      For confidential and special expense purchases of $100,000 or less,
      officials stated that a less formal competitive process was used but was
      comparable with the federal procurement regulations. Additional
      information was not provided on the process for procurements of
      $100,000 or less, so we could not validate whether or not it was actually
      working as prescribed. In addition, a New York City Police Department
      presentation provided to us describing the implementation of the
      confidential and special expense purchase process stated that no oversight
      approvals were required for purchases under $100,000. Also, according to
      a New York City Police Department official, the confidential and special

   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 15

      expense purchases were not approved by the State Office of Homeland
      Security. Documentation obtained showed that about $4.1 million of
      equipment had been purchased through the confidential and special
      expense purchase process for items costing over $10,000 under the DHS
      awards within the scope of our audit.

      An October 2009 fiscal monitoring report by the State Office of Homeland
      Security Fiscal Monitoring Unit contained observations regarding New
      York City Police Department equipment property and procurement
      records. The report stated that equipment property and procurement
      records for transactions selected for review were not made available by the
      New York City Police Department. For eight transactions selected for
      review, no procurement files were made available for the transactions.
      The report further stated that without reviewing any procurement records,
      the State Office of Homeland Security was unable to determine if the New
      York City Police Department was in compliance with procurement
      procedures or grant contract requirements. During a follow-up visit to the
      New York City Police Department in March 2010, different transactions
      were selected for testing and three issues were reported regarding property
      records, mainframe server identification, and grant management
      procedures. In a final August 2010 report, the issues were resolved except
      for the finalization of the grant management procedures.

      The State procurement regulations did not contain provisions that allowed
      for non-competitive contracts without adequate justifications documented
      for other than full and open competition. We question the New York City
      Police Department’s claim that confidentially was an apparent issue for
      many of the items purchased without competition. Also, other grantees
      and subgrantees in New York State and other states have purchased
      similar equipment through advertised procurement for items the New
      York City Police stated were confidential type items.

      In addition, the State Administrative Agency as the grantee had not
      enforced the contractual agreement with the New York City Police
      Department that required compliance with State and federal procurement
      requirements for purchases over $10,000. The Police Department’s
      noncompetitive procurements, particularly of high cost equipment and
      services, denied the Department the full value of a competitive market
      place. The Department may have paid less for the equipment if an open
      bidding process had been used. As a result of the City not complying with
      procurement requirements, the $4.1 million of equipment purchased with
      federal funds by the New York City Police Department is questioned.




   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 16

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the New York Office of
               Homeland Security to:

               Recommendation #5: Ensure that New York City Police
               Department complies with federal procurement regulations and
               provides the visibility necessary for independent reviews of the
               Department’s procurement activities.

               Recommendation #6: Conduct a review to determine allowable
               cost and recover any unreasonable amount (up to $4.1 million)
               from the City of New York used to pay for equipment items not
               purchased in accordance with the grant procurement requirements
               under the confidential and special expense process.

      Management Comments and Auditors’ Analysis
               FEMA concurred with recommendation #5 and #6. However, the
               State Administrative Agency did not concur with recommendation
               #5 and the conclusion that the New York City Police Department
               is not in compliance with Federal procurement regulations. In its
               response, the State officials said that the New York City Police
               Department is in compliance with New York City procurement
               requirements and the process is competitive.

               We disagree with this position. The process used by the New York
               City Police Department does not follow the competitive
               procurement requirements contained in its contract with the State
               nor did it comply with the requirements contained in the New York
               City Procurement Board rules. The Department’s process did not
               comply with the federal requirement that procurements over
               $100,000 be competitively bid.

               The State Administrative Agency did not concur with
               recommendation #6. The State officials said that the procurement
               process used does not skirt competitive requirements but carries
               out a competitive process in a controlled information environment.

               We disagree with this position. The New York City Police
               Department has defined, controlled, and used a unique
               procurement process not used by any other subgrantees in the
               State. The State Administrative Agency has in its response
               attempted to provide reasons why the process, which employs a

   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 17

                controlled rather than open competitive process, complies with
                existing procurement requirements. However, documentation was
                not provided to show that items were procured in an open and
                competitive manner. The State officials also said that the audit
                does not properly portray the interaction between the State’s Fiscal
                Monitoring Unit and visits with the New York City Police
                Department in which the Fiscal Monitoring Unit is trying to
                understand nuances of the confidential procurement of the process.
                We believe that the State Administrative Agency should have been
                aware of the process before it was used to purchase $4.1 million
                dollars of equipment in a less than open competitive environment.

                The Assistant Administrator, Grant Programs Directorate, needs to
                provide corrective actions for the recommendations and a plan to
                implement them within 90 days.

Noncompliance with Grant Inventory Requirements
       State subgrantees did not always maintain inventory records in accordance
       with federal requirements. Compliance with property record requirements
       was not being followed at 3 of 22 subgrantees we visited and 18 of 27
       subgrantees visited by the State Fiscal Monitoring Unit. As a result, the
       State did not have reasonable assurance that the assets procured with
       federal funds were adequately safeguarded to prevent loss, damage, or
       theft of the property.

       Code of Federal Regulations Title 44 § 13.32 (d) Management
       requirements, establishes procedures for managing equipment (including
       replacement equipment), whether acquired in whole or in part with grant
       funds, and includes the following minimum requirements:

         •	 Property records must be maintained and include the property’s cost,
            description, identification number, location, use, condition, and
            ultimate disposition.
         •	 A physical inventory of the property must be taken and the results
            reconciled with the property records at least every two years.
         •	 A control system must be developed to ensure adequate safeguards
            to prevent loss, damage, or theft of the property. Any loss, damage,
            or theft shall be investigated.

       Code of Federal Regulations Title 44 § 13.20 (a)(3) requires that effective
       control and accountability be maintained for all grant and subgrant cash,
       real and personal property, and other assets. Grantees and subgrantees
       must adequately safeguard all such property and must assure that it is used
       solely for authorized purposes. Also, Code of Federal Regulations Title 2

    The State of New York’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 18

      § 215.34 (f)(4) requires that a control system be in effect to ensure
      adequate safeguards to prevent loss, damage, or theft of the equipment. In
      the State of New York, contracts between the grantee and the subgrantees
      also require subgrantees to maintain control and accountability over assets
      acquired with federal funds.

      Issues concerning compliance with federal inventory requirements have
      been a frequently reported problem within the State of New York.
      Inventory records at 3 of 22 subgrantees we visited did not contain
      required information such as equipment serial number, location, or
      evidence that a physical inventory had been conducted every two years.
      In addition, the State Department of Homeland Security Fiscal Monitoring
      Unit reported noncompliance with federal property management
      requirements was reported for 18 of 27, or 67%, of the subgrantees it
      visited. Note that two entities were visited by both organizations resulting
      in a total of 19 subgrantees where property problems were identified.

      Noncompliance for the 19 subgrantees involved inventory records that did
      not contain all of the required information such as the property’s cost,
      description, identification number, location, use, or condition. For
      example, in September 2009 the Fiscal Monitoring Unit reported that one
      subgrantee’s inventory records did not contain information on who holds
      title, location, use and condition, and disposition data. There was also no
      evidence that periodic inventories were completed. In addition, our
      review showed that inventory records for another subgrantee did not
      contain information to support that required periodic inventories were
      conducted, and did not contain title, use, and condition information.

      A State Office of Homeland Security official said that subgrantees were
      not always aware of the federal property management requirements. Even
      though the terms of the subgrantee contracts with the grantee included
      compliance with Federal requirements for maintaining inventory records,
      the subgrantees were not complying with the requirements. The State
      official said that the State office continuously educated subgrantees on
      State and federal requirements through annual regional meetings and site
      visits. The officials also said that information is provided by the State
      agency’s website and through responses to emails and phone calls from
      subgrantees.

      Six subgrantees within the New York City urban area were among the
      19 subgrantees found by the State Fiscal Monitoring Unit and our audit to
      not be in compliance with federal inventory requirements. As shown
      below, the City’s noncompliance has been a continuing problem.




   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 19

        •	 During Fiscal Year 2006, the New York Department of Homeland
           Security would not approve grant contracts until the New York City
           took actions to remedy the non-compliant inventory practices.

        •	 In March 2008, the DHS Office of Inspector General reported
           (Report OIG-08-32 dated March 26, 2008) that the City needed to
           improve its inventory record system. The OIG review showed that
           each subgrant agency used a different method of controlling and
           reporting assets. The OIG concluded that developing a city-wide
           database would enable the city to monitor on-hand assets; increase
           the visibility of quantities, locations, and availability of assets during
           response and recovery efforts; and help avoid duplicate assets.

      In response to the identified inventory problems, the City of New York’s
      Office of Management and Budget contracted for the development of an
      automated Grant Tracking System to track equipment inventory items of
      $5,000 or greater. The city-wide Grant Tracking System was operational
      in July 2009 and all nine City agencies were inputting inventory
      information. However, the information put into the system by the nine
      City agencies was not independently tested to determine if the information
      was accurate and complete. According to a New York City Office of
      Management and Budget official, they are planning to conduct a
      comprehensive review of equipment records in the Grant Tracking System
      to ensure that the baseline equipment list for each City agency is accurate.
      New information placed into the system could be tested by verifying the
      entries with the fiscal cost reports submitted to the State by subgrantees.

      The City’s System contained over 4,000 equipment items with a total
      value that exceeds $80 million. The System did not contain the location,
      manufacturer, and serial number for equipment costing approximately
      $4.1 million that was purchased under the New York City Police
      Department’s confidential and special expense procurement system. The
      system also did not include software items of $5,000 or greater. Computer
      software is classified as equipment under the DHS Authorized Equipment
      List and classified as equipment for procurements by the New York Office
      of Homeland Security. Because software was not included in the Grant
      Tracking System, the number of software items purchased and the total
      cost was not available. Subsequent to our visit, a New York City Office of
      Management and Budget official stated that all software equipment with a
      unit cost greater than $5,000 is now being entered into the Grant Tracking
      System retroactively.

      Without the required property management records, there is a potential for
      subgrantees to not maintain, safeguard, control, or adequately account for
      millions of dollars of assets procured with federal funds. If subgrantees do

   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 20

      not have accurate records of existing equipment, they cannot make sound
      management decisions regarding what additional equipment they need in
      the future.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the New York State Office of
               Homeland Security to:

               Recommendation #7: Reaffirm and enforce the property
               management requirements for equipment purchased with federal
               funds in individual subgrantee contracts.

               Recommendation #8: Require subgrantees that are not in
               compliance to provide a plan to the State to become compliant
               within a specified timeframe.

               Recommendation #9: Confirm that New York City officials have
               conducted a comprehensive review of equipment records in its
               Grant Tracking System to ensure that the baseline equipment list
               for each City agency is accurate.

               Recommendation #10: Ensure that all software with a unit cost
               greater than $5,000 is being entered into Grant Tracking System
               retroactively and for software acquired in the future.

               Recommendation #11: Inventory all the required property
               information for items purchased under the New York City Police
               Department confidential and special expense procurement process.

      Management Comments and Auditors’ Analysis
               FEMA concurred with recommendation #8, #9, #10, and #11. The
               State Administrative Agency also concurred with the
               recommendations.

                   •	 For recommendation #8 the State officials said that it will
                      continue to work with subgrantees to ensure compliance.
                      The officials said that New York City has added additional
                      controls to ensure compliance with inventory requirements.

                   •	 For recommendation #9, the officials said that the Criminal
                      Justice Coordinator of the New York City Mayor’s Office


   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 21

                         has conducted a review of equipment records to ensure
                         accuracy of equipment records.

                    •	 For recommendation #10, the officials said that software
                       with a unit cost of $5,000 or greater is now being entered
                       into the Grants Tracking System.

                    •	 For recommendation #11, the officials said that the New
                       York City Office of Management and Budget is working
                       with the New York Police Department to collect the
                       required property information and enter it into the Grants
                       Tracking System with availability for defined
                       administrators to view the sensitive information.

                We believe that the State Administrative Agency and New York
                City have taken steps to address the intent of the recommendations,
                but further action will be needed to fully implement the
                recommendations.

                The Assistant Administrator, Grant Programs Directorate, needs to
                provide corrective actions for the recommendations and a plan to
                implement them within 90 days.

Untimely Expenditure of Grant Funds
       The State obligated grant funds to subgrantees in accordance with federal
       requirements, but the funds were not available for expenditure for months
       after the date of obligation because the subgrantees needed to sign
       contracts with the State before seeking reimbursement. The time available
       for subgrantees to make expenditures and be reimbursed by the State was
       significantly reduced and overall expenditure of grant funds was delayed.
       As a result, the opportunity for first responders to be better equipped,
       trained, and prepared was delayed because it took 8 to 12 months for
       subgrantees to received signed contracts from the State.

       FEMA Information Bulletin No. 257 dated July 17, 2007 addressed the
       condition that there were many requests by grantees for extending the
       grant performance periods for FY 2002, 2003, and 2004 grants. The
       bulletin recognized that there were problems in making timely
       procurements but that it was important to ensure that funds were obligated
       and expended in a timely manner, within established periods for
       performance. In addition, FEMA’s Program Guidance for the FY 2008
       Homeland Security Grant Program stated that FEMA strongly encouraged
       the timely obligation of funds from local units of government to other
       subgrantees. In addition, the Program Guidance for FYs 2006 and 2007

    The State of New York’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 22

      required that no less than 80% of the total grant funds available to local
      units of government be obligated by the State within 60 days of the receipt
      of funds. For FY 2008 this requirement was within 45 days.

      The State Office of Homeland Security required that contracts be made
      with subgrantees for the award of grant funds before subgrantees could
      seek reimbursement from the State Office of Homeland Security for grant
      expenditures. The State notified subgrantees of the obligated amount they
      would receive within the required federal timeline of within 60 or 45 days.
      Therefore, the State technically complied with grant guidance. However,
      while notified of the amounts, the funds were not available to the
      subgrantee for reimbursement of expenditures until a contract between the
      grantee and subgrantee was approved by the State Office of Homeland
      Security.

      The State and subgrantee review processes took several months and
      delayed the expenditure of grant funds. The process provided extensive
      financial controls over grant funds and started with the subgrantees
      submitting an application for funding to the State Office of Homeland
      Security. The application was reviewed by the State program and fiscal
      review units and the State prepared a contract for grant funds which was
      mailed to the subgrantee. The contract was approved through the local
      approval process and was then returned to the State. The contract was
      signed by the State and approved by three State organizations. After
      approval it was mailed to the subgrantee and then the subgrantee could
      request from the State reimbursement for expenditures.

      Table 2 below shows for FYs 2006, 2007, and 2008, the average time
      taken from the obligation of funds to subgrantees until the subgrantees
      received contract awards. Also included are total grant funds obligated to
      and the amounts expended by the subgrantees and reimbursed by the State
      as of September 30, 2009.




   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 23

                                             Table 2
                             Timeliness of Grant Funds Expenditures
                                          FY 2006 - 2008
                             Average Months                    Amount     Percent
                                                    Total
         Grant Program       from Subgrantee                 **Expended Expended
                                                  Contract
         and Fiscal Year       Obligation to                     and       and
                                                  Awards
                             Contract Award                  Reimbursed Reimbursed
       FY 2006
       State Homeland
                                    10.5           $25,824,775      $14,756,035          57%
       Security Program
       New York City*               11.1           $118,227,500     $13,143,075          11%
       Buffalo*                     10.5            $3,710,000      $1,983,957           53%
       FY 2007
       State Homeland
                                     8.9           $33,355,800      $4,865,000           15%
       Security Program
       New York City*                8.9           $129,475,000     $4,347,749           3%
       Buffalo*                      8.4            $5,142,443      $1,979,247           38%
       FY 2008
       State Homeland
                                     9.8           $45,736,426         $91,754           0%
       Security Program
       New York City*               11.2           $132,657,528              $0          0%
       Buffalo*                     11.3            $4,384,800               $0          0%
       Albany*                      12.0            $1,405,600         $21,023           1%
       Syracuse*                     9.3            $1,280,800         $29,112           2%
       Rochester*                   11.7            $1,172,800               $0          0%
      *Urban Areas Security Initiative Grants
      ** According to State Office of Homeland Security officials the “Amount Expended and
      Reimbursed” could be very deceiving. While many of the Urban Areas Security
      Initiatives may have expended funds, reimbursement requests have not yet been
      submitted to the State. Therefore, the actual amount expended could be significantly
      more than the amount reimbursed at any point in time.

      Subgrantees we visited viewed the lengthy time it took to receive
      approved contracts as problematic for timely expenditure of funds. For
      example, one Urban Areas Security Initiative official stated that they
      received their first approved FY 2008 contract on July 21, 2009. The
      State Office of Homeland Security was awarded funds for the Urban
      Areas Security Initiative on September 16, 2008, approximately 10
      months earlier.

      According to State Office of Homeland Security officials, subgrantees do
      make obligations of funds for projects before seeking reimbursement from
      the State, but this obligation information is not compiled by the State.
      Also, subgrantees often wait until projects are completed before requesting

   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 24

      reimbursement from the State. However, we were not provided with
      documentation supporting these statements. The officials further stated
      that the State has been working closely with the State Division of the
      Budget and Office of the State Comptroller to tighten the timeframe for
      making the funding available to local jurisdictions. The State Office of
      Homeland Security officials stated that they will continue to work with
      these agencies as needed. As part of grantee monitoring visits and annual
      regional grantee meetings, the officials said that the local jurisdictions are
      educated on the time it takes to get this funding approved. The State
      Office of Homeland Security officials stated they worked with the
      subgrantees at the local level to ensure information is provided to State
      Office of Homeland Security early enough in the process to ensure timely
      approval of contracts. Despite these efforts, measurable reductions in the
      timeliness of the process have not occurred and the process has not been
      changed.

      New York is a home rule state which means the lowest level of
      government has the authority over the expenditure of funds, including
      grant funds. The local units of government must approve the planned
      expenditure of grant funds before the subgrantee submits a draft contract
      to the State. This process can take months to complete because of local
      governing bodies schedules to meet and consider the draft contract.
      Additional time is taken to review and approve subgrantee approved
      contracts by the State and return the contract to the subgrantee.

      The process delays the expenditure of grant funds and shortens the time
      period subgrantees have to expend funds within the authorized grant
      period of performance. The delayed expenditures affect the opportunity
      for the first responder to enhance preparedness and response capability.
      This specifically affects the timing of expenditures, such as training, that
      require time for subgrantees to coordinate activities with other
      participants.

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the New York Office of
               Homeland Security to:

               Recommendation #12: Assess the current processes and
               procedures involved with the execution of subgrantee awards to
               identify efficiencies to expedite expenditures.




   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 25

       Management Comments and Auditors’ Analysis
                FEMA concurred with recommendation #12. The State
                Administrative Agency also concurred with recommendation #12.
                The State officials agree that grant funds be made available to
                subgrantees in a timely manner but it is important to maintain
                proper oversight of funds. The process used by the State is to
                ensure that planned expenditures are allowable before the State
                awards a contract to a subgrantee. In addition, expenditure delays
                may be caused by procurement delays and federal requirements.
                The officials also said that they were concerned about what
                constituted timely availability of funds.

                The Assistant Administrator, Grant Programs Directorate, needs to
                provide corrective actions for the recommendations and a plan to
                implement them within 90 days.

Salary Claims Not Based on Actual Expenditures
       The Fire Department New York did not have a reasonable basis to support
       its claims for salary expenditures, specifically $143,437 claimed for
       salaries of personnel backfilling for other employees (participants) who
       were attending training. The amounts claimed were not based on payrolls
       documented in accordance with federal requirements. Rather, the amounts
       were based on a model that computed estimated backfill expenditures
       rather than actual time charges. As a result, the claimed amounts were not
       supported by adequate documentation. Accordingly, we question the
       $143,437 claimed for personnel backfill expenses.

       According to the Code of Federal Regulations Title 2 Part 225
       Appendix B Selected Items of Cost: Compensation for personnel services
       (Formerly Office of Management and Budget Circular A-87) all
       remuneration, paid currently or accrued, for services rendered during the
       period of performance under Federal awards, including but not necessarily
       limited to wages, salaries, and fringe benefits whether treated as direct or
       indirect costs, will be based on payrolls documented in accordance with
       generally accepted practice of the governmental unit and approved by a
       responsible official(s) of the governmental unit. Furthermore, the Code of
       Federal Regulations Title 2 Part 225 Appendix A, states that a cost must
       be reasonable to be allowable under a federal grant and be adequately
       documented.

       Under contracts with the State of New York, subgrantees agreed to
       comply with federal requirements including Office of Management and
       Budget Circular A-87. The contracts required that expenditures be

    The State of New York’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 26

      supported by detail itemization in State Office of Homeland Security
      format.

      Personnel backfill expenses are the result of personnel working overtime
      in order to perform the duties of other personnel who are temporarily
      assigned to FEMA-approved activities outside their core responsibilities.
      Personnel backfill expenses are allowable under the State Homeland
      Security Program and Urban Areas Security Initiative grant programs.
      The Fire Department New York was the only organization in the State of
      New York that used a model to compute backfill amounts, according to a
      State Office of Homeland Security official.

      The personnel backfill amounts claimed were based on a model that
      computed estimated backfill expenditures rather than actual time charges.
      The State Office of Homeland Security claims that this practice was
      approved by the Department of Justice. In support of this position they
      provided an August 26, 2003 email from a Department of Justice
      employee approving of the practice for Byrne Grants (a Department of
      Justice State and Local Law Enforcement Grant Program). The email was
      in response to a July 14, 2003, Fire Department New York letter to the
      Department of Justice requesting the ability to submit replacement cost
      information based on a model approved by FEMA during the submission
      of personnel service costs related to the World Trade Center Disaster. The
      State also provided a letter from FEMA supporting approval of the
      practice. However, the letter was not a formal approval letter from the
      agency for the model to be used for all future grant awards.

      Furthermore, the State provided a FEMA Project Work Sheet from
      Disaster 1391-DR (911 disaster) for overtime incurred to backfill for New
      York Fire Department employees for managing the search and rescue and
      recovery operations at the World Trade Center site, the Office of the Chief
      Medical Examiner, and the Staten Island Landfill in the amount of
      $24,617,123. State Office of Homeland Security officials stated that Title
      2 Code of Federal Regulations 225 Part B does provide for substitute
      systems for allocating salaries and wages to Federal awards if required for
      approval by the cognizant agency. Although the model may have been
      used for a specific disaster, it was not approved by FEMA for the awards
      we reviewed or all future grant awards. The State is inferring that the
      backfill model is a form of an indirect cost plan since the alternative
      methodology it is citing in the federal regulations discusses methods of
      recovering indirect costs. As such the methodology would have to be
      submitted to FEMA for review, analysis, and approval for a specific time
      period. Because the cost of the backfill employees changes over time,
      costs that were applicable to one year may not necessarily reflect costs in
      another year.

   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 27

      Fire Department New York officials claimed that the model resulted in
      lower personnel backfill expenses claimed than if actual employee costs
      were used. The Fire Department New York provided information on why
      the costs were less using the model, but this information was not a
      comparison of actual expenses to model estimates for a given time period.
      In addition, we were not provided with documentation which showed that
      FEMA had reviewed and approved the model for the awards reviewed.
      Accordingly, we could not determine if the personnel backfill expenses
      were reasonable.

      The above condition exists because the Fire Department New York
      personnel claim that they do not have the capability to identify actual time
      charges because of the size of the organization. Furthermore, the State
      Office of Homeland Security Fiscal Monitoring Unit accepted Fire
      Department New York’s utilization of the model during their monitoring
      visit. Regardless, the subgrantee was not in compliance with Code of
      Federal Regulation Title 2 Part 225 because the personnel backfill
      amounts expenditures claimed were not based on actual payroll amounts
      nor was the backfill model specifically approved for the awards reviewed.
      While FEMA approved the model for a specific disaster in 2002 there is
      no evidence it approved or was aware that the model was being used for
      ongoing grant programs. Without knowing the actual payroll amounts it is
      unclear whether the model amounts were more or less than actual payroll
      amounts.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director of the New York Office of
               Homeland Security to:

               Recommendation #13: Require the Fire Department New York
               to compute actual payroll costs in determining the amounts
               charged for backfill expenditures, or submit to FEMA the backfill
               model for its analysis and evaluation to determine if the model
               results in a reasonable allocation of backfill costs to the current
               grant awards.

               Recommendation #14: Disallow any of the $143,437 claimed
               that are determined to be in excess of the amounts determined to be
               reasonable by FEMA.




   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 28

      Management Comments and Auditors’ Analysis
               FEMA concurred with recommendation #13 and #14.
               However, the State Administrative Agency did not concur with
               recommendation #13. The State officials said that identifying the
               overtime coverage for specific individuals is a difficult challenge
               and, because of this challenge, the Fire Department New York
               developed a model to calculate backfill costs. The State officials
               said that FEMA is aware that this model is being used by the Fire
               Department New York.

               We disagree with the position of the State Administrative Agency
               because while compliance with regulations is challenging, it is not
               a valid reason for noncompliance. No evidence was provided that
               FEMA was aware that the model was being used for the grant
               programs reviewed or that FEMA approved the model for the grant
               programs reviewed.

               The State Administrative Agency did not concur with
               recommendation #14 in its response. The State officials said that,
               because it believes FEMA was aware of the use of the model, the
               Fire Department New York acted in good faith.

               As stated above, there is no evidence that FEMA was aware of or
               approved the use of the model for the grant programs reviewed.
               Therefore, we disagree with the position taken by the State
               Administrative Agency.

               The Assistant Administrator, Grant Programs Directorate, needs to
               provide corrective actions for the recommendations and a plan to
               implement them within 90 days.




   The State of New York’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                      Page 29

Appendix A
Purpose, Scope, and Methodology

                       The purpose of the audit was to determine whether the State of
                       New York distributed and spent State Homeland Security Program
                       and Urban Areas Security Initiative grant funds strategically,
                       effectively, and in compliance with laws, regulations, and
                       guidance. The goal of the audit was to identify problems and
                       solutions that can help the State of New York better prepare for
                       and respond to threats, acts of terrorism, and other hazards. The
                       audit further enabled us to answer the following nine researchable
                       questions:

                         •    Were measurable goals developed from plans?
                         •    Do funded plans link all-hazards capabilities to goals?
                         •    Were funds and resources distributed based on goals?
                         •    Does the State accurately measure risk?
                         •    Does the State measure response capabilities?
                         •    Can the State demonstrate improved performance?
                         •    Were grants administered compliantly?
                         •    Did the State monitor grant programs?
                         •    What innovative practices can be used by other states?

                       The scope of the audit included the State Homeland Security
                       Program and Urban Areas Security Initiative grant awards for
                       FYs 2006, 2007, and 2008 as described in the Background section
                       of this report.

                       The audit methodology included work at FEMA Headquarters,
                       State of New York offices, each of the urban areas that received
                       grants, and various subgrantee locations. To achieve our audit
                       objective, we analyzed data, reviewed documentation, and
                       interviewed the key state and local officials directly involved in the
                       management and administration of the State of New York’s
                       Homeland Security Grant Programs. We conducted 22 site visits
                       and held discussions with appropriate officials from 6 counties,
                       10 local governments or first responders, and 6 State agencies
                       awarded State Homeland Security Program and Urban Areas
                       Security Initiative grants, in order to determine if program grant
                       funds were expended according to grant requirements and State-
                       established priorities.

                       We conducted site visits to the following 22 subgrantee
                       organizations:

                         •    Albany County
                         •    Erie County

           The State of New York’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 30

Appendix A
Purpose, Scope, and Methodology

                         •    Monroe County
                         •    Niagara County
                         •    Onondaga County
                         •    Westchester County
                         •    City of Albany
                         •    City of Binghamton
                         •    City of Niagara Falls
                         •    City of Rochester
                         •    City of Schenectady
                         •    City of Syracuse
                         •    City of Troy
                         •    City of Utica
                         •    New York City Police Department
                         •    Fire Department of New York

                       State Agencies

                         •    Department of Agriculture and Markets
                         •    Department of Health
                         •    Department of State
                         •    Division of Military Affairs
                         •    Emergency Management Office
                         •    New York Division of State Police

                       At each location, we interviewed responsible officials, reviewed
                       documentation supporting State and subgrantee management of the
                       awarded grant funds (including expenditures for equipment,
                       training, and exercises), and physically inspected some of the
                       equipment procured with the grant funds.

                       We conducted the audit between December 2009 and May 2010, in
                       accordance with Government Auditing Standards as prescribed by
                       the Comptroller General of the United States (Yellow Book-2007
                       Revision). Those standards require that we plan and perform the
                       audit to obtain sufficient, appropriate evidence to provide a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives. We believe that the evidence obtained provides a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives.

                       Although this audit included a review of costs claimed, we did not
                       perform a financial audit of those costs. This was a performance
                       audit as defined by Chapter 1 of the standards, and included a
                       review and report of program activities with a compliance element.
           The State of New York’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 31

Appendix A
Purpose, Scope, and Methodology

                       Foxx & Company was not engaged to and did not perform a
                       financial statement audit, the objective of which would be to
                       express an opinion on specified elements, accounts, or items.
                       Accordingly, Foxx & Company was neither required to review, nor
                       express an opinion on, the costs claimed for the grant programs
                       included in the scope of the audit. Had Foxx & Company been
                       required to perform additional procedures, or conducted an audit of
                       the financial statements in accordance with generally accepted
                       auditing standards, other matters might have come to their
                       attention that would have been reported. This report relates only to
                       the programs specified and does not extend to any financial
                       statements of the State of New York.

                       While the audit was being performed and the report prepared under
                       contract, the audit results are being reported by the DHS Office of
                       Inspector General to appropriate Federal Emergency Management
                       Agency and State of New York officials.




           The State of New York’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 32

Appendix B
Management Comments to the Draft Report



                                                                       NEW YORK STATE
                                  DIVISION OF HOMELAND SECURITY AND EMERGENCY SERVICES
                                                          OFFICE OF COUNTER TERRORISM

David A. Paterson, Governor                                                             James M. Sherry, Director
                                                            November 10, 2010

Martin W. O’Neill
Foxx & Company
324 West Ninth Street
Cincinnati, Ohio 45202

Dear Mr. O’Neill:

Thank you for the opportunity review and comment on the draft audit report entitled, “The State of New York’s
Management of State Homeland Security Program and Urban Areas Security Initiative Grants Awarded during Fiscal
Years 2006 through 2008.”

Given New York State’s threat profile and history of man-made and natural disasters, the Division of Homeland
Security and Emergency Services1 very much appreciates the need to ensure the effective use of federal homeland
security grant funding. We also welcome federal oversight and insight into our grants management processes.
However, we disagree with the underlying analyses of 7 of the 14 recommendations identified in the audit report.

The audit report disregards material facts and makes broad generalizations and misleading statements in several of the
recommendations. Some recommendations are included despite the fact that the relevant issues have already been
addressed. There are instances where recommendations are made without any discernable criteria, such as federal law,
regulation or U.S. Department of Homeland Security (DHS) or Federal Emergency Management Agency (FEMA)
policy.

We invested a great deal of time and effort with the audit team to explain our processes and demonstrate how our
efforts align with the requisite federal requirements. We are very disappointed that the audit report failed to accurately
reflect the level of detail we provided throughout this process. For this reason, in accordance with Section 8.33 of the
Government Auditing Standards of 2007, we must insist that this letter and our detailed rebuttal (enclosed) be included
in the final audit report.

                                                            Sincerely,




                                                            James M. Sherry
                                                            Executive Deputy Commissioner &
                                                            Director, Office of Counter Terrorism
                                                            Division of Homeland Security and Emergency Services




1
  As part of the Governor’s SFY2010-2011 Executive Budget, the legacy Office of Homeland Security was
merged into the new Division of Homeland Security and Emergency Services (DHSES). DHSES serves as
the State Administrative Agency for the federal homeland security grant programs.

                                                            1



                The State of New York’s Management of State Homeland Security Program and 

             Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                        Page 33

Appendix B
Management Comments to the Draft Report

                                           New York State’s Audit Rebuttal


Recommendation #1: Develop strategic goals and objectives applicable to first responder capabilities that
are specific, measurable, achievable, results-oriented, and time limited.

NYS Response: DHSES disagrees with this assessment and the assertion that the State has not developed
measurable goals and objectives consistent with federal requirements. As stated by the report, the State of
New York has complied with all federal requirements and has implemented a State Homeland Security
Strategy, duly approved by DHS. Using a scale provided by DHS part of their annual monitoring visit, we
have been able to assess the progress made on our goals and objectives and we continue to improve our
State Homeland Security Strategy.

DHSES has recently completed a major revision of the State Homeland Security Strategy, which involved
hundreds of New York’s State and local stakeholders. The goals and objectives are aligned with the federal
priority areas and the national preparedness capabilities. We have worked to assess our preparedness
capabilities, but the inability to measure capability improvements and demonstrate the effect that the grant
funds have had on the capabilities of first responders are issues the entire nation is struggling with. A task
force of federal, state, local and tribal stakeholders commissioned to review national preparedness efforts
recently found that, “…while stakeholders across the nation have been working to improve preparedness,
specific measurable outcomes for these efforts have yet to be defined and assessed.”2

Measuring preparedness is inherently a difficult challenge, one made more complicated by FEMA’s
inability to develop a consistent and viable system for assessing capability and the impact of grant funding.
The failure of the Cost to Capability project and recent GAO and Inspector General Reports3 highlight
FEMA’s challenges. Further underscoring this lack of federal guidance on national performance measures,
federal legislation was recently enacted (HR3980) mandating DHS develop a standard of measurement
against which state and local stakeholders can use to compare their level of progress and indicate
capability. These examples are not intended as criticisms of our federal partners, rather they are
offered to highlight the complexity of the issue and disingenuous nature of holding state and local
stakeholders to standards that do not currently exist.

Despite the challenges, DHSES and our State and local stakeholders have and will continue to work closely
with FEMA to assist them in developing tools to assess and measure preparedness, because it is critical
FEMA have feedback from “end-users” when developing national polices and preparedness measures.
DHSES will also maintain an open dialogue with our federal, state and local stakeholders regarding our
strategic planning efforts, gathering feedback through surveys, regional workshops, meetings and other
mechanisms to ensure our strategy remains effective and that we continue to advance our goals and
objectives.




2
    Perspectives on Preparedness: Taking Stock Since 9/11
http://www.fema.gov/pdf/preparednesstaskforce/perspective_on_preparedness.pdf
3
  GAO Report: FEMA Has Made Limited Progress in Efforts to Develop and Implement a System to Assess National
Preparedness Capabilities http://www.gao.gov/new.items/d1151r.pdf

DHS Inspector General Report: FEMA’s Preparedness for the Next Catastrophic Disaster - An Update
http://www.dhs.gov/xoig/assets/mgmtrpts/OIG_10-123_Sep10.pdf

                                                               2



                  The State of New York’s Management of State Homeland Security Program and 

               Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                            Page 34

Appendix B
Management Comments to the Draft Report

Recommendation #2: Incorporate the goals and objectives into a statewide system for measuring local
jurisdiction first responder progress toward achieving the goals and objectives.

NYS Response: DHSES disagrees with this recommendation and the assertion that states should be
required to do what the federal government has, thus far, been unable to do. As our experience with the
Cost to Capability pilot revealed, DHS currently lacks a sound “system” to measure the effectiveness of the
use of grant funds. It is, therefore, unreasonable to expect that state and local stakeholders adhere to
uniform standards of measurement absent a national system, or, in the least, clear and effective federal
guidance. New York State has been a willing partner in the effort to help DHS identify and test systems to
measure preparedness, and we remain committed to working with our federal, State and local stakeholders
on this issue.

Although DHSES does not currently employ ‘mathematical’ measurements, we utilize several
comprehensive processes to understand how our local stakeholders are advancing homeland security goals
and objectives through the use of federal grant funding. This process includes several elements outlined
below:

•	   Regional Workshops: Although we communicate with our stakeholders on a daily basis, DHSES
     facilities an annual series of “Regional Workshops” across the State dedicated to gathering feedback
     from our local grantees. Through these Workshops, the State provides detailed grant information to
     attendees. We also collect information from subgrantees on their strengths, weaknesses, and priority
     needs with regard to homeland security funding. This information, along with other data points, is
     utilized during our grant Investment Justification development process.

•	   Contracts and Reporting: Prior to the initiation of projects, New York State engages an extensive
     contracting system with our grantees to document: 1) what projects will be funded; 2) how the funds
     will be used and; 3) how the various projects and initiatives support the homeland security goals and
     objectives. Each contract contains performance measures and quarterly reporting timeframes which
     grantees must comply with and report against. All of the contracts are monitored by DHSES Program
     Representatives. Each funded project must be cross-referenced with, and linked to, federal and State
     preparedness doctrines and documents, including our State Homeland Security Strategy, our
     Investment Justifications, National Priorities, Target Capabilities, and federal “G&T” Codes. This
     extensive process requiring subgrantees to crosswalk their projects with federal and State priorities and
     policies helps to underscore the importance of continuous evaluation and prioritization of federally
     funded activities. To help facilitate this data collection and analysis, all grant applications and contract
     information, including the quarterly reports, are captured through our web-based grants portal, E-
     Grants.

•	   Capability Assessments: New York State has conducted a series of Capabilities Assessments to
     better understand the capability strengths, weaknesses and needs of our local and State stakeholders.
     In 2006 and 2008, we launched formalized “Capabilities Surveys”, which assessed each County’s
     respective progress on 10 or more of the Target Capabilities identified by DHS. The data captured
     from these surveys was then used to better inform our Investment Justification development,
     prioritization and strategic grant planning efforts. Also, since FY 2007, New York State has completed
     the mandated State Preparedness Report (SPR) to assess our capabilities. The information collected
     via the SPR was reviewed, along with our other capabilities data, to better inform our decision-
     making.


                                                       3




               The State of New York’s Management of State Homeland Security Program and 

            Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                    Page 35

Appendix B
Management Comments to the Draft Report

•	   NIMS Typing for Team-Based Capabilities: In addition to our formalized Capability Assessments,
     New York State has also been an early proponent of the use of FEMA NIMS Typing Standards to
     assess progress and capability levels. NIMS Typing Standards exist primarily for “Team-Based
     Capabilities”, such as Explosive Device Response Operations, Search and Rescue, WMD/HazMat
     Decontamination and Response, etc. The State has focused “Targeted Grant Programs” to bolster and
     enhance these specialized capabilities of local stakeholders. Offering these Targeted Grants gives the
     State greater visibility into the true nature of local capabilities in highly technical areas. In terms of our
     Explosive Device Response Operations Targeted Grant, there are no formal NIMS Typing Standards
     associated with Explosive Detection Canine Teams. Accordingly, New York State is coordinating with
     DHS’ Office of Bombing Prevention to develop these standards.

•	   After Action Reports: In addition to formalized Capability Assessments and NIMS Typing Analyses,
     we also look at past history, lessons learned and after action reports from exercises and significant
     incidents and responses. Our experience with local first responders indicates that this is one of their
     primary mechanisms for assessing capabilities and identifying priority needs for future rounds of
     grants.

•	   Subject Matter Experts: DHSES also relies on subject matter experts from a range of disciplines to
     help us evaluate our progress and programs. Subject matter experts provide assistance in developing
     and shaping our annual grant Investment Justifications and State Homeland Security Strategy, both of
     which consider local progress towards our homeland security goals and objectives. DHSES holds
     monthly meetings of the Homeland Security Strategy Workgroup (HSSWG), which includes subject
     matter experts from more than 15 different State agencies involved in homeland security issues. We
     also host an annual UASI workshop to engage local subject matter experts from within and among
     UASI regions across the State. We actively work to ensure cross-talk and regular interactions between
     the HSSWG and our UASI and other local stakeholders, as well.

Recommendation #3: Include the progress achieved in the goals and objectives along with risk in the
decision making process for future first responder grant funding decisions.

NYS Response: DHSES agrees that progress and risk are important factors to consider. In fact, we already
take both factors into consideration when allocating homeland security grant dollars. That said, we firmly
believe that risk should be the driving factor in the decision to allocate homeland security funding. We have
long advocated this position to DHS and note that they too use risk (not progress) as the primary factor
related to the allocation of grant awards. Every county in New York State has some degree of risk, which is
why we use a risk-based formula to allocate a large portion of the local homeland security grant awards.
There is no federal directive on how the homeland security funding should be allocated; given New York’s
threat profile we feel that risk should be the driving factor.

Although risk is the driving factor in our funding decisions, we do very much consider progress and
capability gaps/needs in the allocation funding as well. Progress and previous effectiveness are considered
with the allocation of grant funds to support State level homeland security activities, and in the
development of our targeted grant programs aimed at developing and enhancing critical capability areas at
the local level. For example, DHSES has provided targeted grant funding to the State’s 12 local bomb
squads since 2006. In 2008, the DHS Office of Bombing Prevention (OBP) conducted detailed capability
assessments of each bomb squad in NYS. These assessments outlined squads’ capability gaps and needs



                                                        4




               The State of New York’s Management of State Homeland Security Program and 

            Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                     Page 36

Appendix B
Management Comments to the Draft Report

(i.e. equipment, training) using the NIMS Typing Guidelines provided by FEMA. Squads are now required
to link their funding applications back to their capability assessment to ensure progress is being made
toward the development of their capabilities (which align to homeland security goals and objectives).
Moreover, using the NIMS Typing Standards, New York is able to ascertain how squads have used grant
funds to increase their status (i.e. from a Type 4 to a Tier 3). It should also be noted that previous contract
implementation is a factor considered in the bomb squad grant application, which is another example of
how progress is considered.

Other targeted grant programs have been developed based on the need to improve critical capability areas
across the state, and DHSES will continue to analyze and consider progress as we develop current and
future targeted grant programs. However, risk will remain the driving factor as it relates to the allocation of
homeland security grant funding.

Recommendation #4: Identify on-going and proposed projects for FYs 2006 through 2008 that will need
federal funding beyond the grant period, estimate the timeframe and the amount of money needed to
complete the projects, and provide contingency plans with options for sustaining the capabilities being
acquired in the absence of federal funds.

NYS Response: DHSES disagrees with this recommendation as it fails to recognize the fact that additional
grant funding is available to support on-going and proposed projects. This audit looked at funding for FFY
06-08, but it did not take into account the two additional grant cycles (FFY 09-10) that have since been
approved, which means grantees will have funding available at least until 2013 as the grants have a
minimum three year performance period. The President’s 2011 budget includes additional homeland
security funding, which will further extend the available resources.

The recommendation also clearly and directly contradicts the recent decision of the Department of
Homeland Security Secretary, issued in Information Bulletin No. 336 on November 30, 2009, specifically
allowing the use of federal homeland security funding to maintain and sustain current and previous
investments. We question the audit report’s omission of this key fact. The preparedness task force
mentioned earlier has also recommended that grantees have the flexibility to use federal grant funds to
support maintenance and sustainment costs without limitation. Furthermore, most, if not all, localities are
realistically unable to establish funding source “contingency plans” absent a specific earmark or
appropriation. Without appropriate legal authority, state and local governments may not establish a ‘pre-
identified’ funding source as a contingency plan. If such a funding source is properly designated with the
requisite legal budgeting authority, such an ‘alternate’ funding source may arguably violate non-
supplanting rules. Nonetheless, the additional responsibilities placed on state and local governments to
support national homeland security efforts require a sustained commitment of federal funding, particularly
during these challenges fiscal times. It is an inevitable certainty that without this sustained commitment of
federal funding our national preparedness capabilities will begin to erode – not due to a lack of state and
local commitment, but rather the limitation in resources. Additionally, as we are unaware of formal DHS
guidance on the issue, the notion of homeland security grant funding as an entitlement program appears an
editorial comment on behalf of the auditors.




                                                      5





              The State of New York’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                   Page 37

Appendix B
Management Comments to the Draft Report

Despite the need for continued homeland security funding, DHSES also appreciates the need to leverage
other resources in support of the capabilities developed with the federal funds. We will stress this point
both in the application process and in the guidance we offer to our State and local grantees. We must also
point out, however, that the audit fails to fully recognize the commitment of State and local resources
beyond the federal grant programs, , as millions of State and local dollars go to support homeland security
efforts, particularly as it relates to the funding of personnel, the most critical homeland security resource.

New York State has invested more than $400 million in State resources on homeland security programs and
initiatives from 2006 to date, with an annual average of nearly $84 million. Even during these austere fiscal
times, New York State is poised to invest an additional $42 million in capital funding in the State
Preparedness Training Center and up to $75 million annually to support interoperable and emergency
communications, a local priority and goal in the State Homeland Security Strategy.

Few, if any, jurisdictions expend more of its local resources on homeland security than the City of New
York. New York City’s local annual commitment for anti-terrorism measures amounted to $330 Million in
2009 alone. The City invested nearly $500 Million to design and roll out a broadband data network to
support emergency communications, and many millions more to upgrade public health labs and hospitals,
and to enhance protection at critical infrastructure.

The examples outlined above highlight New York’s commitment to the homeland security mission. It also
underscores the fact that this is a long–term effort, sometimes necessitating that contracts extend beyond
fixed grant years. Long-term projects will often take several years to complete and grantees are well aware
that if grant funds are no longer available, they will need to obtain other funding sources. This is clearly
spelled out in the contract agreement. As a federal multiple year appropriation, grantees generally have
three years to spend the federal funds (absent federally-approved extensions) and often approve contracts
knowing that additional federal funds are “in the pipeline” as outlined above.

Recommendation #5: Ensure that New York City Police Department complies with federal procurement
regulations and provides the visibility necessary for independent reviews of the Department’s procurement
activities.

NYS Response: DHSES disagrees with this assessment and the conclusion reached that the New York
City Police Department (NYPD) is currently not in compliance with federal procurement regulations. The
NYPD uses Department of Homeland Security grant funds to purchase equipment and technology utilized
to prevent and protect New York City from future terrorist plots. New York City procurements are
authorized by the Charter of the City of New York and adopted by joint action of the City Council and the
Procurement Policy Board, and the Board sets the small purchase procurement threshold at $100,000 – not
$10,000. 44 CFR §13.36(b)(1) requires that grantees and subgrantees follow their own procurement
procedures provided that the procurements conform to applicable federal law and the standard; DHSES
does recognize this special condition in the NYC contracts. The City is required to follow the procedures of
its Procurement Policy Board, which is directed in many instances by New York City Charter, including
the small purchase purchasing threshold of $100,000, which is directly aligned with the federal competitive
bidding threshold. The auditors failed to appreciate this distinction with New York City’s grant contract.
Purchases made under $100,000 are made under a less formal competitive process and comports with
federal procurement regulations. Second, the auditors erroneously described the NYPD’s procurement
process as “non-competitive.” While the NYPD may not have publicly advertised the type,



                                                      6




              The State of New York’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                   Page 38

Appendix B
Management Comments to the Draft Report

quantity, and technical specifications of equipment and services purchased by the NYPD in order to
prevent such information from falling into the hands of would-be terrorists, the audit erroneously equates
the NYPD’s efforts with a “non-competitive” procurement process.

 Having done so, the auditor then speculates that the NYPD “may have paid less for the equipment if an
open bidding process had been used.” In fact, these purchases are conducted through a competitive process
(except where only a single source is available) consistent with the process used for advertised proposals.
The NYPD solicited proposals and considered bids from multiple vendors, conducted technical evaluations
of each, and determined fair and reasonable pricing.

Except as specifically noted below, or where otherwise permitted, multiple vendors are solicited and
multiple vendors submitted proposals in response to a solicitation by the NYPD. The NYPD often solicited
requests from vendors that have existing City, State and/or federal contracts. Occasionally, and as federal
regulations and State law permit, the NYPD solicited a proposal from only one vendor when there was only
one vendor that could provide the services (e.g., proprietary software or hardware or unique goods or
services).

The NYPD is always required to demonstrate that the prices received are “fair and reasonable”. This is
done through one or more of the following methods: 1) by comparing the price received to the price listed
on an existing contract, OGS or GSA schedule; 2) by comparing price offered to the price paid by other
purchasers – typically other municipalities or law enforcement agencies; 3) by comparing historically
similar procurements; and/or 4) by using a method called price per technical point. When using price per
technical point, they first have an evaluation committee score the proposals that were received. They then
divide the vendor’s total cost by their average proposal score. The vendor with the lowest price per
technical point is superior.

Recommendation #6: Conduct a review to determine allowable cost and recover any unreasonable
amount (up to $4.1 million) from the City of New York used to pay for equipment items not purchased in
accordance with the grant procurement requirements under the confidential and special expense process.

NYS Response: DHSES disagrees with this recommendation. The NYPD’s procurement process, by
DHSES’ estimate, does not seek to skirt competitive requirements, but rather attempts to carry out a
competitive process within a controlled information sharing environment. DHSES will work with the
NYPD to ensure that the NYPD’s procurement process is conducted in accordance with 44 CFR 13.36.

It should also be noted that the audit does not properly portray the dialogue, meetings and resolution of the
DHSES Fiscal Monitoring Units visits with the NYPD. Both parties have worked collaboratively to
understand the nuances of this issue and we will ensure compliance with federal, State and local
requirements.

Recommendation #7: Reaffirm and enforce the property management requirements for equipment
purchased with federal funds in individual subgrantee contracts.

NYS Response: DHSES agrees with this recommendation. As stated in the report, DHSES expends a
significant amount of effort in educating sub-recipients on the very specific federal property record
requirements under 44 CFR and then verifying compliance. Although subgrantee property
records may not include the level of detail the federal guidelines require, few, if any, sub-
recipients are wholly lacking

                                                     7




              The State of New York’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                  Page 39

Appendix B
Management Comments to the Draft Report

in property record retention. Most, if not all, subgrantees are substantially compliant with these
requirements. Additionally, the lack of federally required data fields, such as ‘who holds title’, does not
automatically result in deficiencies in safeguarding the assets purchased, as stated in the report, nor does it
mean that the subgrantee cannot locate the equipment or asses their future equipment needs. Regardless,
DHSES continues to reaffirm and enforce the federally mandated property record and management
requirements and will research innovative ways to do so.

Recommendation #8: Require subgrantees that are not in compliance to provide a plan to the State to
become compliant within a specified timeframe.

NYS Response: DHSES agrees with this recommendation. DHSES has and will continue to work with our
subgrantees to ensure compliance. DHSES has an inventory tracking system (TC/MAX) utilized for the
hundreds of pieces of CBRNE equipment associated with the 172 WMD Trailers across the State. DHSES
will work with our subgrantees to determine if and how TC/MAX can be used to comply with their local
inventory tracking needs, as well.

New York’s State largest subgrantee, New York City, has several internal controls in place to manage
inventory and to track equipment purchased with federal funds. Equipment assets are subject to the
provisions of the New York City Comptroller's Internal Control and Accountability Directives and
Comptroller's Memoranda. On inventory, the Comptroller’s Office has outlined the requirements for each
City agency to follow in order to manage assets, to maintain internal inventory records, and to conduct an
annual physical inventory of capital assets.

For DHS grants, New York City added an additional layer of controls through the development of a Grant
Tracking System (GTS). GTS is a web-based inventory tracking system to manage and track DHS funded
equipment. There are currently 4,356 equipment assets recorded in GTS. For each asset, GTS allows the
City to collect important information and to store this information centrally, including a description of each
equipment item, the serial number, the date the equipment was purchased, the location and condition of
each asset, and the last date the asset was inventoried. GTS has helped the City systematically control and
report on DHS assets, and to make the information available centrally for our oversight team.

Since the OIG visit, a number of enhancements have been made to GTS and several new processes have
been instituted. When New York City developed GTS, it worked with a vendor to customize many
different functions. One key area was the report generation capability. Today, GTS is used to generate the
Fiscal Cost Reports for quarterly reporting. In this past quarter, New York City has greatly improved its
ability to generate reports centrally that can focus on specific grant programs, agencies, and defined time
periods. To expand the information collected under each asset, the City has made it possible for agencies to
now upload images, drawings and documents.

Recommendation #9: Confirm that New York City officials have conducted a comprehensive review of
equipment records in its Grant Tracking System to ensure that the baseline equipment list for each City
agency is accurate.

NYS Response: DHSES agrees with this recommendation. The Mayor’s Office of the Criminal Justice
Coordinator (CJC) conducted a comprehensive review of the equipment records recorded in GTS. CJC
worked with the GTS Program Manager and each City agency to cross check the information in GTS



                                                      8




              The State of New York’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                   Page 40

Appendix B
Management Comments to the Draft Report

against the information each agency had provided on the standard reporting form, the Fiscal Cost Report.
CJC is now in the process of reconciling a few inconsistencies to ensure quality assurance. Going forward,
CJC and the Office of Management and Budget will conduct quarterly reviews of equipment records in
GTS to ensure that the baseline equipment list for each City agency is accurate. This process will be
outlined in a revised Policies and Procedures document that the City will soon distribute.

DHSES anticipates that the issues associated with this recommendation will be addressed within the next
90 days.

Recommendation #10: Ensure that all software with a unit cost greater than $5,000 is being entered into
Grant Tracking System retroactively and for software acquired in the future.

NYS Response: DHSES agrees with this recommendation. All software with a unit cost greater than
$5,000 is now being entered into the Grant Tracking System, and we will soon conduct a review to ensure
that software purchases from earlier grant cycles have been entered, as well. Over $100,000 in software
purchases have been recorded in GTS.

DHSES anticipates that the issues associated with this recommendation will be addressed within the next
90 days.

Recommendation #11: Inventory all the required property information for items purchased under the New
York City Police Department confidential and special expense procurement process.

NYS Response: DHSES agrees with this recommendation. The Mayor’s Office of Management and
Budget is working with the Police Department to collect the property information on the expense items
they have entered into GTS. Each of the items in question has been bar coded and these records now exist
in GTS. The NYC Office of Management and Budget is working with the NYPD to arrange for secure user
rights, so that defined administrators can enter and view sensitive property-related information.

DHSES anticipates that the issues associated with this recommendation will be addressed within the next
90 days.

Recommendation #12: Assess the current processes and procedures involved with the execution of
subgrantee awards to identify efficiencies to expedite expenditures.

NYS Response: DHSES agrees that it is imperative that grant funds be made available to subgrantees in a
timely manner. However, it is equally important that the awarding agencies maintain proper oversight over
the grantees’ use of these funds and ensure that these funds are used appropriately and as intended. This
process helps to ensure fiscal accountability and allows DHSES to review and track expenditure plans and
progress on previous projects (see DHSES response to Recommendations 2 and 3) before funds are
awarded.

The report explicitly states that New York State is in compliance with the 45/60-day congressional
obligation requirement, yet the recommendation overlooks this noted compliance and provides a
conclusory statement that funds were not provided in a timely manner. We are concerned, however, that
the report does not articulate what criteria forms the basis for this recommendation, nor does it define




                                                    9




              The State of New York’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                 Page 41

Appendix B
Management Comments to the Draft Report

what is considered the “timely” availability of funds. The contracting process referred to in the report is
governed by New York State Finance Law, which requires a multi-step review process that includes
DHSES fiscal and program staff, review by the Attorney General’s Office and final approval from the State
Comptroller. Although the entire process can take several months, the time also includes the requisite local
planning and approval process. For example, grantees have 60 days to complete the grant applications, and
often times must gain approval from their local governing bodies before accepting the grant awards.

As stated above, the local applications must include linkages to the State Homeland Security Strategy goals
and objectives, as well as anticipated budgets, so that DHSES can ensure that the planned expenditures are
allowable and in accordance with federal guidelines and regulations. In New York’s experience, these
issues are most appropriately addressed before the contract award to ensure that funds will be expended
appropriately and so that local grantees are not placed in a position where costs were incurred in good faith
only to later discover later that the expenditures were not allowable.

As it relates to the actual expenditure of the funds, procurement delays and federal requirements can slow
the process as well. For example, FEMA requires an Environmental and Historical Preservation (EHP)
review be completed prior to the approval of initiatives that may impact the environment in some capacity.
For large projects, these reviews may take up to a year; therefore, funds cannot be spent until those
approvals have been received. Additionally, since the grants are reimbursement-based, grantees must
actually incur the expenses and submit vouchers prior to reimbursement. Oftentimes, subgrantees may
decide to wait until projects are completed to submit for reimbursements. DHSES is not aware of any law,
regulation or rule that would preclude them from submitting for reimbursement in this way as long as they
do so within the grant performance period; however, it is understandable that timing reimbursement
requests in such a way may create the appearance that federal funds are not expended when in fact they are
merely awaiting reimbursement.

Although we are confident in our process, we always seek to improve the contract award practices within
our control in order to achieve a well-functioning process that is both efficient and well planned. The
regional workshops outlined previously have proven to be an effective way of gathering local feedback on
our contracting process and other grant related issues.

Recommendation #13: Require the Fire Department New York to compute actual payroll costs in
determining the amounts charged for backfill expenditures, or submit to FEMA the backfill model for its
analysis and evaluation to determine if the model results in a reasonable allocation of backfill costs to the
current grant awards.

NYS Response: DHSES disagrees with this recommendation. The New York City Fire Department
(FDNY) is contractually required to maintain fixed-post coverage in Engine, Ladder, Squad, and Rescue
Companies, along with their HazMat Unit, Battalions and Divisions at all times with uniformed members
of specified ranks. When staffing drops below the fixed post level, this creates a vacancy that must be filled
by a replacement firefighter on straight time, or overtime if no straight time employees are available.




                                                     10





              The State of New York’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                   Page 42

Appendix B
Management Comments to the Draft Report

When members are detailed to training, they are removed from the field chart and follow a 40-hour
Monday to Friday schedule. For every forty hours of training conducted, FDNY has calculated that fifty-
three hours of overtime is needed to cover the individual's field schedule. An 80 hour program would
involve 92 hours of backfill. Based on the fact that the FDNY has several hundred vacancies on any given
day, the Overtime Impact Factor - the percentage of time in which a post needs to be covered due to a
vacancy - has a weighted average of 100%. Due to this, identifying overtime coverage against specific
vacated posts (i.e., Firefighter Jones covering Firefighter Smith's day tour due to training) becomes an
extremely difficult challenge.

Because of this challenge, the FDNY developed a model to capture training-related backfill costs for the
purpose of claiming and documenting these amounts under federal grants. 2 CFR 225.8 allows for the use
of random sampling or other approved method for determining personal service costs. The FDNY model
was first proposed to, and approved by, the federal government during the FEMA WTC Public Assistance
process. During this process, the FDNY claimed backfill expenses under FEMA Project Worksheet #753
(FIPS No. 061-51000-29). During FEMA's review of the FDNY's claim, they determined that the
methodology and resulting claim amount did not exceed the actual overtime paid out by the FDNY.

This methodology was also subsequently approved the U.S. Department of Justice and FEMA is aware that
FDNY continues to use this model. The model involves taking the actual number of attendees at a training
program, breaking the list of attendees down by rank, determining the total daily hours lost in the field, and
multiplying an average overtime hourly rate for each rank.

It is worth mentioning that the FDNY does maintain payroll documentation for each employee consistent
with general accounting principles.

Recommendation #14: Disallow any of the $143,437 claimed that are determined to be in excess of actual
time charges.

NYS Response: DHSES disagrees with this recommendation. As outlined above, FEMA is aware of
FDNY’s model and methodology and provided initial federal approval for its use. In light of these facts, the
FDNY acted in good faith, and a requirement to disallow such funds would, in our view, be arbitrary and
capricious. The Fiscal Monitoring Unit within DHSES will continue to monitor this practice and help to
identify and correct any administrative issues. We further request that FEMA re-affirm its approval of
FDNY’s methodology to avoid unnecessary confusion in the future.

Potential Best Practices: We were disappointed that the audit report failed to identify any best practices;
New York State has a variety of innovative initiatives that should be considered. These initiatives are
outlined below:

•	   Regional Stakeholder Workshops: These annual workshops are used to provide technical assistance
     on grant issues; share insights into DHSES and other State-level undertakings; identify best
     practices/lessons learned; and gauge capability improvement. But most importantly, they provide
     customer service and a feedback loop to local grantees.




                                                        11





              The State of New York’s Management of State Homeland Security Program and 

           Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                   Page 43

Appendix B
Management Comments to the Draft Report

•	   State Preparedness Training Center: The State is making progress in its plans to establish the State
     Preparedness Training Center (SPTC); a New York State facility which serves as a hub for emergency
     response training for natural, technological and terrorism related disasters for first responders at all
     levels of government. On December 6, 2008, the State Preparedness Training Center was officially
     accredited by the Commission on Accreditation for Law Enforcement Agencies, as one of only two
     training academies in New York State (along with the New York City Police Department Training
     Bureau) to become accredited. The State has dedicated $42 million in funding for 2010 to further
     advance the development of the SPTC. This funding will support the development of a Simulations
     Complex and other unique training resources that will help to ensure the highest level of preparedness
     for New York’s first responders.

•	   Preparedness Capability Workshop: DHSES developed this workshop to help our State and local
     stakeholders better understand how the national preparedness capabilities and doctrine relate to the
     homeland security grant programs and the State Homeland Security Strategy. DHSES has provided
     multiple deliveries of the workshop across the State and it was recently identified by FEMA as a
     possible national best practice. Several states have asked for copies of the workshop materials, further
     supporting the notion of it being endorsed as a best practice.

•	   Targeted Grants: DHSES has used federal homeland security dollars to develop several strategically
     focused grant programs addressing discrete capabilities in which small investments can provide
     concrete and demonstrable improvements. Using various metrics (national recognition of typing, etc.),
     these grants help to provide easily measurable impacts of federal funding dollars. The targeted grant
     programs are currently aimed at developing and sustaining capabilities related to: Bomb Squads,
     Technical Rescues/USAR, HazMat Teams, Explosive Detection Canines, and Animal Sheltering.

•	   Monitoring (Contract/Fiscal) Efforts: As part of NYS’s commitment to accountability and good
     governance, DHSES has long engaged in both programmatic and fiscal monitoring of grantees to
     ensure they are meeting the grant requirements and spending the funds appropriately. DHSES has
     established a Contracts Unit with dedicated representatives for the various grantees in New York State.
     Each Contract Representative engages in field visits and regular programmatic monitoring to provide
     ongoing customer service to our local grantees. A separate and distinct Fiscal Monitoring Unit also
     works with grantees to identify and correct any fiscal compliance/reporting issues. Although every
     State has some monitoring procedures in place, we are unaware of any State with a more robust
     monitoring program than New York.

•	   Logistics Center: DHSES has established a centralized Logistics Center to process, maintain and track
     the CBRNE equipment associated with the 172 WMD Trailers across State. The Logistics Center helps
     to ensure some degree of equipment standardization and interoperability and provides for ongoing
     maintenance and calibration of the equipment.

•	   Risk Formula: This formula assesses risk to jurisdictions (counties) across New York State based on
     more than 30 variables related to numerous aspects of homeland security risk. This data-driven
     analysis includes threat elements (both terrorism and all-hazards), vulnerability
     elements (critical infrastructure) and consequence elements (critical infrastructure and population
     elements). This analysis is subsequently used to guide the distribution of grant funds.




                                                       12




               The State of New York’s Management of State Homeland Security Program and 

            Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                                  Page 44

Appendix C
Organizational Chart



                New York State Office of Homeland Security 

                          Organizational Chart 





           The State of New York’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 45

Appendix D
Report Distribution



                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretary
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




           The State of New York’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 46
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
